HHS/OIG, Audit - "Tenet Choices 65's Adjusted Community Rate Proposal
Modifications for Contract Year 2004," (A-06-06-00094)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Tenet
Choices 65's Adjusted Community Rate Proposal Modifications for Contract Year
2004," (A-06-06-00094)
February 23, 2007
Complete Text of Report is available in PDF format (246 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether Peoples Health Network’s (Peoples Health) use of its payment increase was adequately supported and allowable in accordance with the Medicare Prescription Drug, Improvement, and Modernization Act (MMA). Peoples Health’s use of its MMA payment increase was adequately supported and allowable under the MMA. Peoples Health appropriately used the increased Medicare capitation payments to reduce beneficiary cost sharing, enhance benefits, and stabilize beneficiary access to providers. Specifically, Peoples Health eliminated physical therapy and vision hardware copayments, reduced copayments on prescription drugs, waived member enrollment fees for the prescription drug discount card, and increased the percentage of premiums passed through to providers.